FILED
MAR 22 2021
No. 20-1097

OFFICE OF T81E CLERK
SUP

IN THE
SUPREME COURT OF THE UNITED STATES

KAREN C. HAN,
Petitioner,
v.
YANGRAI CHO,
Respondent.
On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit
REPLY BRIEF FOR PETITIONER
Karen C. Han, pro se
2512 Carroll Ct.
Flower Mound, Texas 75022
Phone: (972) 355-7480
karenh514@gmail.com

RECEIVED
MAR 2 6 2021
raffailSoci_i. FL
j .

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

REPLY BRIEF FOR THE PETITIONER

1

Cho Has Failed To Respond To The Subject Issue In The Petition

1

Cho's Objection To Factual Statements Has No Bearing On The
Issues Before This Court

4

CONCLUSION

6

TABLE OF AUTHORITIES
Cases

Page

Daimler AG v. Bauman,
571 U.S. 117 (2014)

3

Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915 (2011)

3

Vivendi SA v. T-Mobile USA Inc.,
586 F.3d 689 (9th Cir. 2009)

3

ii

REPLY BRIEF FOR THE PETITIONER
In this petition for writ of certiorari (the "Petition"), the sole question
presented is whether a defendant who is a citizen of foreign country but is
domiciled in a forum state is subject to the forum's exercise of general personal
jurisdiction. (See Pet. Section Question Presented) Nonetheless, Respondent
Yangrai Cho ("Cho") avoids to discuss said question, and fails to rebut
Petitioner Karen C. Han's ("Han") arguments or position with regard to this
question.
Moreover, in an apparent effort to obscure the subject issue in this
Petition—that is, whether Han alleged jurisdictional facts sufficient for the
district court to exercise general personal jurisdiction over Cho Cho distorts
the record; Cho argues that the courts below "properly found there was no
general personal jurisdiction over Respondent[.]" (Opp. 5) (emphasis added).
Thus, as further discussed below, Cho merely confirms that this Court
should summarily reverse the Ninth Circuit's opinion or grant this Petition.
A. Cho Has Failed To Respond To The Subject Issue In The Petition.
Cho makes false arguments under the sub-title "The Court[s Below]
Properly Found No General Jurisdiction over Respondent"—inter alia that the
Ninth Circuit "properly analyzed the Petition and found Petitioner did not
provide evidence to support its claims that were based upon information and
belief." (Opp. 2-5; Opp. 5)
1

This argument flies in the face of the record clearly showing that Han's
action was dismissed solely based for her failure to allege jurisdictional facts in
the Complaint to assert general personal jurisdiction over Cho. (See App. 2a)
("The district court properly dismissed Han's action for lack of personal
jurisdiction because Han failed to allege facts sufficient to establish that
defendant Cho had continuous and systematic contacts with Hawaii to establish
general personal jurisdiction...over Cho.") (emphasis added).
Of significance, the district court denied Han's request for jurisdictional
discovery, reasoning that: "Plaintiff Han has not provided any basis to justify
jurisdictional discovery[]" because "[i]t is uncontroverted that Defendant Cho is
a citizen of South Korea." (App. 19a) Therefore, the unequivocal conclusion of
the courts below was that general personal jurisdiction cannot be exercised over
a defendant who is a citizen of foreign country regardless of his or her domicile
in a forum state.
As demonstrated above, the courts below dismissed this case because
they found that the Complaint failed to allege jurisdictional facts to assert
general jurisdiction over Cho, not because Han failed to produce evidence to
support an exercise of such jurisdiction.
Accordingly, Cho has failed to respond to the sole subject issue before
the Court: whether the Ninth Circuit's decision that Han's jurisdictional
allegations that Cho is actually domiciled in Hawaii—which track in all relevant
2

respects the holdings of this Court in Daimler AG v. Bauman, 571 U.S. 117, 137
(2014) and Goodyear Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915,
919 (2011) (Pet. 2)—are allegations insufficient to assert general personal
jurisdiction over an individual defendant contradicts the precedent of this Court.
Cho's reliance on Vivendi SA v. T-Mobile USA Inc., 586 F.3d 689 (9th Cir.
2009), in support of his argument that Han's jurisdictional allegations based on
"information and belief' made without further facts do not survive a motion to
dismiss, is misplaced. (Opp. 3) In that case, the Ninth Circuit affirmed the trial
court's dismissal of the plaintiffs complaint on forum non conveniens grounds,
finding that: the plaintiff "has alleged no facts that show that [the defendant]
took any action from [the forum state.]... These allegations do not establish
plausibly that a U.S. entity participated in the alleged fraud and thus fail to show
that the plaintiffs' fraud claims are connected to a U.S. business entity." Id. at
693-694. As shown above, Vivendi SA is wholly distinguished from this case
and has no relevancy to the discussion at hand.
Cho finds fault with Han's service of summons on Cho at his business
place in South Korea. (Opp. 4) The service in question has no bearing on the
issue before the Court.
Since the central authority of South Korea, as designated under the
Hague international service convention, allows a service of summons at a
defendant's place of business in South Korea, in an attempt to save time and
3

money, Han chose to serve Cho at his well-known place of business in South
Korea, rather than at his home in Hawaii, because Han did not know for sure
where to serve Cho in Hawaii as he has multiple, at least three, residential
addresses in Hawaii that the Complaint identifies (App. 27a).
As explained above, to the extent that the Complaint alleges Cho's actual
domicile in Hawaii (Pet. 2; App. 27a), Han's service on Cho at his business
place in South Korea is irrelevant to the discussion or analysis regarding the
issue presented in this Petition.
In view of the foregoing, Cho provides no basis not to summarily reverse
the Ninth Circuit's opinion in this case.
B. Cho's Objection To Factual Statements Has No Bearing On
The Issues Before This Court.
Cho objects to Han's statement that "'[c]urrently, South Korea's
governmental agency (equivalent to United States' SEC) and the Prosecutors'
Office of South Korea, are probing into said unlawful activities of Cho and
Hankook Tire' as there is no evidence in the record to support such allegations."
(Opp. 1; Pet. 12) Cho's objection has no bearing on the issues before the Court.
Apparently, in this Petition Han does not purport to prove that the
statement quoted above is true, but only draws the Court's attention to the fact
that the public both in the United States and South Korea and South Korean
authorities have been closely following up or referring to this case, in order to
provide a compelling reason for this Court to summarily reverse the Ninth
4

Circuit's opinion written in the most insincere manner completely ignoring the
well-established case law of this Court—which "has so far departed from the
accepted and usual course of judicial proceedings [] as to call for an exercise of
this Court's supervisory power" S. Ct. R. 10(a)—that "undermine[s] the
credibility of the world-renowned, efficient and sophisticated judicial system of
the United States" (Pet. 12-13).
Therefore, Cho's objection here does not affect the analysis of the issues
before the Court, and no evidentiary ruling or consideration is required with
regard to the objection.
As a related matter, Cho mischaracterizes "[t]his case" as "the last case in
a series of cases spanning nearly twenty years..." (Opp. 1) If the Court were to
deny this Petition, Han intends to seek a remedy against Cho and Hankook Tire,
Co. Ltd. (Hankook Tire") for the wrongdoings alleged in the Complaint (App.
12) in South Korean courts, upon obtaining from on-going investigations by
South Korean authorities addressed above evidence to prove illegality of their
transactions that made the basis of Han's claims against them.1
Indeed, the termination of this case in the United States courts due to
procedural matters other than upon merits justifies Han's re-institution of her
action against them in South Korean courts—especially because in effect Han

It is noted that parties agreed to a contractual provision that no statutory
statute of limitations shall apply until Han's financial losses sustained as a result
of Cho's and/or Hankook Tire's wrongdoings are fully indemnified.
5

has been denied her statutory and constitutional right of access to courts in the
United States (Pet. 3).
CONCLUSION
For the foregoing reasons and those stated in the Petition, the Ninth
Circuit's opinion should be summarily reversed or the Petition should be granted.

Respectfully Submitted,
Dated: March 22, 2021
Karen C. Han, pro se
2512 Carroll Ct.
Flower Mound, Texas 75022
Phone: (972) 355-7480
karenh514@gmail.com

6

